Audit of Medicare Part A Administrative Costs Claimed For the Period October
1, 1998 Through September 30, 2001 - United Government Services, LLC, Milwaukee,
Wisconsin
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Part A Administrative Costs Claimed For the Period
October 1, 1998 Through September 30, 2001 - United Government Services, LLC,
Milwaukee, Wisconsin," (A-05-02-00047)
June 12, 2003
Complete Text
of Report is available in PDF format (609 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether United
Government Services (UGS) had an effective system of internal controls and
whether $197 million of administrative costs were claimed in accordance with
the Federal Acquisition Regulation, as interpreted and modified by the Medicare
contract.  The UGS internal controls were generally adequate and we accepted
$196.7 million in costs claimed.  We recommended financial adjustments
totaling $260,831 for excessive executive compensation increases, unallocable
guarantee fees, and overcharged corporate overhead.